TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                           Inspection of the IRS’s
                     Pandemic Influenza Preparedness Plan
                                   (Phase II)



                                         FINAL REPORT

                                          May 13, 2010

                           Reference Number: 2010-IE-R004




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 13, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Inspection of the IRS’s Pandemic Influenza
                             Preparedness Plan (Phase II) (IE-09-010)

 This report presents the results of Phase II of our inspection to determine if the Internal Revenue
 Service (IRS) has met the various requirements directed to Federal agencies in preparing for a
 potential outbreak of a pandemic influenza like the H1N1 virus.
 On October 1, 2009, the Secretary of Health and Human Services declared, “… that a public
 health emergency exists nationwide involving Swine Influenza A (now called 2009–H1N1 flu)
 that affects or has significant potential to affect national security.” If the IRS is not adequately
 prepared for an outbreak of pandemic influenza, or if it does not fully carry out its related
 implementation plan, employees, contractors, and visitors to IRS facilities will not be protected
 from infection; and the continuity of critical tax administration operations could be negatively
 affected.
 In 2006, the Homeland Security Council requested that department and agency heads
 certify that their department or agency was addressing the applicable elements of
 pandemic planning set forth in a checklist it developed. In August 2008, the checklist
 was updated to reflect current Federal Government guidance. The Department of the
 Treasury is using the Homeland Security Council checklist to assess pandemic
 preparations by each of the Treasury Bureaus. The Treasury Inspector General for Tax
 Administration chose to use the same criteria for our initial inspection and shared the
 results of this inspection with the Department of the Treasury’s Director, Emergency
 Programs.
                   Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                             (Phase II)




We issued an interim report1 in which we determined that the IRS had addressed the majority of
the pandemic checklist issued by the Homeland Security Council. This included prioritizing
work and essential operations in the event of a pandemic outbreak, communicating information
to employees on the potential implications of a pandemic, and taking steps to protect the health
and safety of IRS employees. In response to our interim report, the IRS outlined steps to address
the remaining items in the checklist.
While acknowledging the IRS has addressed the pandemic checklist, there were additional
aspects of a potential outbreak that the Treasury Inspector General for Tax Administration
believed warranted additional review. This included the tests, training, and exercises related to
local business continuity plans (using a pandemic scenario); contingencies if a campus2 or field
office3 had to completely close down due to expected high absenteeism; and the IRS’s ability to
use telework in the context of a pandemic.

Results
In the course of this review, we determined that guidance related to pandemic influenza
developed by the IRS was distributed to field operations and that seasonal and pandemic
vaccinations will be provided for employees. We found that while continuity exercises are
improved, planned further development of the exercises is warranted. In addition, we noted that
even with the potential of high absenteeism due to a pandemic, daily staffing levels at large IRS
facilities are not consistently tracked, and the IRS does not include a provision in teleworking
agreements for directed teleworking of qualified employees in an emergency, such as a
pandemic.

Recommendations
We recommend that the Chief, Submission Processing (Wage and Investment Division) implement
a process to provide senior management of campuses with daily information on attendance levels at
the facility they manage. Also, in expanding the teleworking program of the IRS, the Chief
Human Capital Officer should include a provision for directed teleworking of qualified employees
in an emergency, such as a pandemic, power outage, or severe weather.




1
  Inspection of the Internal Revenue Service’s Pandemic Influenza Preparedness Plan (Reference
  Number: 2010-IR-R001, dated January 2010).
2
  Campuses (formerly known as Service Centers) are the data processing arm of the IRS. The campuses process
  paper and electronic submissions, correct errors, and forward data to the Computing Centers for analysis and
  posting to taxpayer accounts.
3
  A field office is any office of the IRS not located at a campus or the National Headquarters.
                                                                                                                 2
                Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                          (Phase II)




Response
IRS management agreed with the recommendations. The Wage and Investment Division has
incorporated procedures for reporting absenteeism into their Business Resumption Plans, and the
Human Capital Office plans to modify IRS telework agreements to stipulate that employees may
be directed to telework during emergency situations. The actions taken are reflected in detail in
Management’s complete response to the draft report, included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 927-7048 if you have questions or Kevin Riley,
Director, Inspections and Evaluations at (972) 249-8355.




                                                                                                3
                       Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                                 (Phase II)




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Pandemic Policies Have Been Adopted by Field Operations.......................Page 3
          Continuity Exercises are Improved, and Further Development is
          Planned..........................................................................................................Page 4
          Daily Staffing Levels at Campuses Should Be Tracked...............................Page 6
                    Recommendation 1:..........................................................Page 7

          Teleworking Agreements Should Include a Provision for
          Directed Teleworking of Qualified Employees in an Emergency ................Page 8
                    Recommendation 2:..........................................................Page 9




Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
                      Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                                (Phase II)




                                              Background

A pandemic is a viral disease that is prevalent throughout an entire country, continent, or the
whole world, or an epidemic over a large area. On June 11, 2009, the World Health
Organization declared the H1N1 virus to be a Phase 6 global pandemic. On October 1, 2009, the
Secretary of Health and Human Services declared, “that a public health emergency exists
nationwide involving Swine Influenza A (now called 2009–H1N1 flu) that affects or has
significant potential to affect national security.” On October 24, 2009, the President declared
H1N1 to be a national emergency.
The typical flu season in the Northern Hemisphere spans from November to March. It is
predicted that agencies could experience periodic local absenteeism as high as 40 percent. There
are risks to the Internal Revenue Service (IRS) if it is not adequately prepared for an outbreak of
pandemic influenza, or if it does not fully carry out its related implementation plan. Employees,
contractors, and visitors to IRS facilities may not be protected from infection and the continuity
of critical tax administration operations could be negatively affected.
In November 2006, the Homeland Security Council requested that department and agency
heads certify that their respective department or agency was addressing the applicable
elements of pandemic planning set forth in a checklist. That checklist provided a
mechanism to assist agencies in developing their pandemic plans and ensured uniform
preparedness across the Federal Government. In August 2008, the checklist was updated
following an interagency process to reflect current Federal Government guidance. The
Department of the Treasury was using the checklist to assess pandemic preparations by
each of the Treasury Bureaus. We used the checklist as our criteria and shared the results
of the inspection with the Department of the Treasury’s Director, Emergency Programs.
At the time of our initial inspection, the IRS had addressed the majority of the pandemic
checklist issued by the Homeland Security Council. This included prioritizing work and
essential operations in the event of a pandemic outbreak, communicating information to
employees on the potential implications of a pandemic, and taking steps to protect the
health and safety of IRS employees. We issued an interim report with the results of that
inspection.1 In response to that report, the IRS outlined steps to address the remaining
items in the checklist.




1
    Inspection of the Internal Revenue Service’s Pandemic Influenza Preparedness Plan (Reference
    Number: 2010-IR-R001, dated January 2010).
                                                                                                   Page   1
                   Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                             (Phase II)




While acknowledging the IRS has addressed the pandemic checklist, there were additional
aspects of a potential outbreak that the Treasury Inspector General for Tax Administration
believed warranted additional review. This included the tests, training, and exercises related to
local business continuity plans (using a pandemic scenario); contingencies if a campus2 or field
office3 had to completely close down due to expected high absenteeism; and the IRS’s ability to
use telework in the context of a pandemic.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Chief, Agency-Wide Shared Services; and at the Atlanta, Georgia Campus; Austin, Texas
Campus; Cincinnati, Ohio Field Office, and Denver, Colorado Field Office during the period
October 2009 through February 2010. We conducted this inspection in accordance with the
President’s Council on Integrity and Efficiency Quality Standards for Inspections. Detailed
information on our inspection objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
  Campuses (formerly known as Service Centers) are the data processing arm of the IRS. The campuses process
  paper and electronic submissions, correct errors, and forward data to the Computing Centers for analysis and
  posting to taxpayer accounts.
3
  A field office is any office of the IRS not located at a campus or the National Headquarters.
                                                                                                        Page     2
                   Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                             (Phase II)




                                     Results of Review

Pandemic Policies Have Been Adopted by Field Operations
In reviewing field operations, we noted additional issues related to our initial review.

Human Capital and Continuity of Operations guidance was distributed to field
operations
In addition to the general information published for all employees, the IRS’s Human Capital
Office published, “Human Capital Reference For Pandemic Health Issues: Information for
Managers.” Managers were encouraged to maintain a copy for reference. During our various
field visits, all the managers that we interviewed possessed a copy of this document.
Emergency procedures for a pandemic outbreak have been incorporated into the IRS
Headquarters’ Continuity of Operations plan (COOP), in an appendix entitled, “Pandemic
Influenza COOP.” The Continuity of Operations Plan outlines the priority of work and mission
essential functions, the continuity of leadership, notification procedures, vital records, and other
recovery procedures. A template has been published for IRS functions to incorporate similar
information in local Continuity of Operations Plans across the IRS. There are in excess of 2,500
of these plans, as each function in each office has their own plans. We found this template, as
well as the Human Capital document discussed above, were both attached to all of the local
business resumption plans we reviewed during our field visits.

Seasonal and pandemic vaccinations will be provided for employees
Each year, the IRS provides free influenza vaccinations to interested employees for the recurring
“seasonal” flu. The vaccinations are administered under the guidance of Federal Occupational
Health4 using the criteria developed by the Centers for Disease Control and Prevention. This
year, seasonal flu shots began on October 1, 2009.
A vaccine for the 2009-H1N1 is also available and being provided to employees. However, the
H1N1 vaccine is to be distributed to all interested employees over the course of several months,




4
 Federal Occupational Health is a non-appropriated agency and a service unit within the Department of Health and
Human Services that provides occupational health and wellness services exclusively to federal employees. Federal
Occupational Health works in partnership with Federal organizations nationally and internationally to design and
deliver comprehensive solutions to meet their occupational health needs.
                                                                                                        Page       3
                 Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                           (Phase II)




since the initial quantities of the vaccine were limited. Vaccinators were instructed by the Center
for Disease Control to target the subgroups for whom the risk of complications is greatest.
As of December 2, 2009, the Federal Occupational Health had provided the H1N1 vaccine to
only 617 IRS employees. As of February 17, 2010, the Federal Occupational Health recorded
that 17,000 IRS employees had received the vaccine. While this shows progress, the IRS has
over 100,000 employees. The unavoidable delays in administering the vaccine cannot be controlled
by the IRS, but may place individual employees at risk of contracting the virus before the vaccine is
available. Employees have been advised that they may also get the H1N1 vaccine through local
sources including doctors, public health units, etc.
As the typical flu season runs from November to March, H1N1 has the potential to impact the
2010 filing season. However, timing is uncertain. In past years, seasonal flu activity typically
did not reach its peak in the United States until January or February, but flu activity has occurred
as late as May. It is significant that the 2009 H1N1 flu virus has caused illness, hospitalizations,
and deaths in the United States during the summer months when influenza is very uncommon.
So it is not known when flu activity will increase, when it will be most intense (peak), what
viruses will circulate, or how long the season might last.

Continuity Exercises are Improved, and Further Development is
Planned
Testing and exercising continuity plans is critical to ensuring the viability of the plans. Testing
validates the recovery strategies, assumptions, and procedures against likely disasters or
emergency events. The gaps and weaknesses in the plans should be identified and documented
during comprehensive testing, which allows management to update and strengthen the plans.
Homeland Security guidance states that, “Developing and implementing comprehensive exercise
policies is a continually evolving process.” The guidance recommends a multi-year plan that
employs a building-block approach in which training and exercise activities focus on specific
capabilities in a cycle of escalating complexity. Homeland Security lists seven exercise types of
increasing complexity in two categories.
Discussion-based exercises are normally used as a starting point in the building-block approach
of escalating exercise complexity. Discussion-based exercises include seminars, workshops,
tabletop exercises, and games. These types of exercises typically highlight existing plans,
policies, interagency/inter-jurisdictional agreements, and procedures.
Operations-based exercises represent the next level of the exercise cycle. They are used to
validate the plans, policies, agreements, and procedures solidified in discussion-based exercises.
Operations-based exercises include drills, functional exercises, and full-scale exercises. They
can clarify roles and responsibilities, identify gaps in resources needed to implement plans and
procedures, and improve individual and team performance. Operations-based exercises are
characterized by actual reaction to simulated intelligence; response to emergency conditions;
                                                                                             Page     4
                  Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                            (Phase II)




mobilization of apparatus, resources, and/or networks; and commitment of personnel, usually
over an extended period of time.
In 2008, the Treasury Inspector General for Tax Administration conducted a review of business
resumption plans5 and reported that the IRS did not conduct complete tests or exercises in a
timely manner to ensure the viability of its plans. In addition, we noted that the exercises that
were performed were generally a “tabletop”, a discussion based type of exercise.
In September 2009, in the formal response to the Treasury Inspector General for Tax
Administration audit, the IRS reported that it had developed a multi-year plan of testing and
exercises for Fiscal Years 2010-2012 in compliance with the Homeland Security guidelines.
According to IRS officials, the IRS Multi-Year Test and Exercise Strategy documents
agency-wide requirements for the types of tests and exercises that the IRS will conduct. The
requirements provide escalating complexities for exercise design, planning and execution for all
IRS continuity plans. The strategy moves the IRS toward operations-based (functional and
full-scale) exercises that demonstrate its capability to perform mission essential functions and
manage incidents at the local, area and national levels.
Our inspection of pandemic preparations showed that the IRS had done exercises with a
pandemic scenario, but still mostly at the discussion based tabletop level.
•       In 2006, the Atlanta, Georgia Campus held an exercise using a pandemic scenario. At
        that time, the scenario involved the “avian” influenza, at the beginning of both the
        Federal Government’s and the IRS’s preparations for a potential pandemic outbreak.
•       In May 2009, four campuses, Andover, Massachusetts; Kansas City, Missouri;
        Memphis, Tennessee; and Ogden, Utah; conducted exercises involving a pandemic
        scenario. Also in May, a pandemic exercise was held in the Jacksonville, Florida Field
        Office. This exercise scenario included simulating high absenteeism of employees and
        an order by the Centers for Disease Control and Prevention to close all offices for a
        period of 2 weeks.
•       In June 2009, in the Washington, D.C. area, the IRS participated in “Eagle Horizon
        2009.” Eagle Horizon was a government-wide exercise which used a scenario of a
        terrorism-based biological attack on the National Capital Region. The exercise also
        involved IRS-specific pandemic related events at two of its campus locations to test and
        validate the IRS emergency management and response capabilities, and included the
        simulated closure of the campuses. By activating alternate sites, this event had elements
        of an operations based exercise.



5
 Weaknesses in Business Resumption Plans Could Delay Recovery From a Disaster (Reference
Number: 2008-20-178, dated September 17, 2008).
                                                                                           Page     5
                   Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                             (Phase II)




•       In November 2009, the Atlanta, Georgia Campus again conducted an exercise with a
        pandemic scenario. Members of the Treasury Inspector General for Tax Administration’s
        Office of Inspections and Evaluations were invited to observe this exercise.
We acknowledge the IRS has made progress in the testing and exercises of continuity plans since
our audit in 2008, and additional future improvements are planned. However, we are concerned
that, to date, the tabletop exercises conducted at the campuses may not have been as effective in
identifying potential weaknesses as planned future operations based exercises.

Daily Staffing Levels at Campuses Should Be Tracked
According to some predictions, an organization could experience up to 40 percent of its staff
absent for periods of 2 weeks at the peak of a pandemic wave with lower levels of staff absent
for a few weeks on either side of the peak. The absenteeism can be the result of illness, the need
to care for sick family members, or simply fear of contracting the flu. Agencies have been
advised to prepare for high absenteeism by considering several mitigating measures, such as social
distancing (including telework) and adjusting workforce deployment and workload inventories.
Closing a campus during the filing season, even for a brief period, could severely impact the
IRS’s processing of tax returns, particularly those returns still filed on paper forms. However,
the number of paper individual income tax returns is steadily decreasing as more taxpayers file
electronically. In 2009, the IRS processed 46 million individual (non-business) paper tax
returns. In contrast, the projections for 2010 are that the IRS will receive and process only
37 million individual returns as paper. Managers at both campuses that we visited stated they
had enough trained reserve personnel to cover predicted numbers of absences. However, should
a campus be unable to process work due to whatever reason, the IRS has existing procedures to
transship paper returns from one processing campus to another.
Transshipping primarily is used to reroute misdirected paper returns6 that arrive at a campus not
equipped to process that work. The IRS has shipped large quantities of returns in the recent past.
The Government’s stimulus programs caused a large number of additional U.S. Individual
Income Tax Returns (Form 1040A) to be filed during the 2008 filing season. Staff in the
Kansas City, Missouri campus made two shipments of Form 1040A stimulus returns to the
Fresno, California campus totaling 616,000 returns. During the first week of May 2008, staff at
the Austin, Texas campus shipped 235,000 standard Form 1040 returns to other campuses over a
2-day period. For comparison, in this same week of 2009, the Austin, Texas campus staff
processed 550,000 returns and is only projected to process 81,000 during the same week in 2010.




6
 An example of “misdirected” returns would be business tax returns mistakenly submitted to a campus that only
processes individual returns, or vice versa.
                                                                                                       Page     6
                 Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                           (Phase II)




Decisions to transfer workload inventories or to adjust the workforce are made corporately between
campus management and IRS Wage and Investment Division management. Wage and Investment
Division monitors return processing production at all the campuses through a central monitoring
function in the Cincinnati, Ohio campus. The decision to transship or bring on additional seasonal
staff can start at a campus or with the monitoring function. These decisions are usually based on
comparing actual production to projected goals. When the projections are not being met, decisions
for adjustments can be made.
The scenario of a pandemic causing unprecedented absenteeism could create a new variable in this
management decision. High absences of employees would reduce production, but would precede
the measurement of it. Therefore, it would be valuable to management to monitor absenteeism as a
predictor of workload imbalances.
Currently, an IRS “head of office” (Campus Director, Senior Commissioner’s Representative, or
other senior manager) may not be able to track absenteeism within the facility they manage and
use it as a factor or trigger in decision making related to a facility closure and/or the necessity of
transferring work to another location. The IRS has no consistent policy or process to track
absenteeism at a facility. First line managers are aware of attendance within their span of control
on a daily basis, but this information is not generally collected or summarized at a facility level.
Under the present practices, a facility head of office may not have timely information to assist in
the decision process. Delays in decision making could affect the efficiency of operations,
particularly at the campuses during the filing season.
We discussed the idea of collecting attendance data at a campus with the Chief, Submission
Processing for Wage and Investment Division. The Chief indicated that conceptually, such a
process could be developed and implemented in consultation with the various campus directors.

Recommendation
Recommendation 1: The Chief, Submission Processing (Wage and Investment Division)
should implement a process to provide senior management of campuses with daily information on
attendance levels at the facility they manage.
       Management’s Response: IRS management agreed with the recommendation. All
       Submission Processing campuses have incorporated procedures into their Business
       Resumption Plans for when there is an absenteeism rate of 50 percent or more in a
       department, the campus Department Manager will notify the Operations Manager. The
       Operations Manager will notify the Field Director. The Field Director will consider
       staffing levels throughout all Operations. If there is a 50 percent absenteeism rate
       throughout the campus, the Field Director will notify the Submission Processing
       Director.



                                                                                             Page    7
                 Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                           (Phase II)




Teleworking Agreements Should Include a Provision for Directed
Teleworking of Qualified Employees in an Emergency
The Homeland Security Council Implementation Plan references the benefits of using telework
to slow the spread of disease by keeping face-to-face contact to a minimum (often referred to as
“social distancing”) while maintaining operations as close to normal as possible. Telework can
also help agencies retain functionality as infrastructure issues and other challenges make the
main worksite difficult to access.
The Office of Personnel Management suggests that the key to successful use of telework in the
event of a pandemic health crisis is an effective routine telework program. The Office of
Personnel Management telework guide states that “telework is of particular interest for its
benefits in … ensuring continuity of essential Government functions in the event of national or
local emergencies.” The success of an organization’s telework program depends on regular,
routine use. The Office of Personnel Management guide strongly recommends any individuals
asked to telework in the case of an emergency event or a pandemic health crisis have a telework
agreement in place that provides for such an occurrence. Such individuals also should practice
teleworking on a regular basis as much as possible. Experience is the only way to enable
managers, employees, technical support, and other stakeholders to work through any issues that
may inhibit remote work.
As of January 16, 2010, the IRS reported that it had 105,000 employees, including 85,000 full
time employees. Only 23,000 of the full time employees are approved teleworkers, that is, they
have all of the hardware, software, and training that they need as well as a valid telework
agreement approved by their manager. In our field visits, we determined that the majority of
employees at campuses are not able to telework due to the nature of the work performed. There
are 48,500 employees at the campuses, including production workers in Submission Processing,
as well as other operations such as telephone call centers. On the other hand, field positions,
such as Revenue Agents and Revenue Officers, do make use of teleworking capabilities; i.e., the
employees often work away from an IRS office using laptop computers and remote connections.
The IRS has recently begun to develop plans for the expansion of telework. The existing labor
contract between the IRS and the National Treasury Employees Union details the specific jobs
suitable for telework. Additionally, the contract lists the eligibility requirements employees must
meet in order to telework. Under current IRS teleworking guidelines, all teleworking is voluntary
and employees cannot be directed to telework. However, Office of Personnel Management
guidelines allow provisions for agencies to direct qualified employees to telework in an emergency,
such as a pandemic or severe weather event that causes offices to be closed. Going forward the IRS
has the opportunity to adopt the Office of Personnel Management provision.




                                                                                           Page    8
                 Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                           (Phase II)




Recommendation
Recommendation 2: In expanding the teleworking program of the IRS, the Chief Human
Capital Officer should include a provision for directed teleworking of qualified employees in an
emergency.
       Management’s Response: IRS management agreed with the recommendation. The
       Human Capital Office has convened a cross-functional task group to study telework
       expansion within the IRS. The task group will develop a structured approach and
       recommendations for expanding telework. Included in the recommendations will be a
       provision for modifying IRS telework agreements to stipulate that employees may be
       directed to telework during emergency situations.




                                                                                           Page    9
                Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                          (Phase II)




                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

Our objective was to determine if the IRS had met the various requirements directed to Federal
agencies in preparing for a potential outbreak of a pandemic influenza like the H1N1 virus. To
accomplish this objective we:
I.     Determined if campuses have taken appropriate measures to incorporate pandemic
       planning into their local operations.
       A. Interviewed the Submission Processing Director and Site Coordinator at two
          campuses.
       B. Determined if the potential effects of a pandemic have been incorporated into
          planning for the 2010 filing season. Specifically, we evaluated information/data on:
           1. projections for return volumes through the filing season.
           2. plans and capabilities for transshipping returns to another campus should the
              center have to be closed.
       C. Reviewed examples of local business continuity plans for pandemic contingencies.
       D. Obtained and reviewed documentation of any campus exercises or tests using a
          scenario of a pandemic outbreak.
       E. Determined what procedures are in place to track absenteeism.
       F. Determined the state of the current teleworking program at the selected campuses.
          Specifically, we evaluated information/data on:
           1. number of approved teleworkers.
           2. number of positions eligible to telework.
           3. number of deployed laptop computers.
II.    Determined if field offices have taken appropriate measures to incorporate pandemic
       planning into their local operations.
       A. Interviewed local “head of office” and/or Senior Commissioner’s Representative.
       B. Reviewed selected local business continuity plans for pandemic contingencies.
       C. Obtained and reviewed documentation of any exercises or tests using a scenario of a
          pandemic outbreak.
       D. Determined what procedures are in place to track absenteeism.

                                                                                        Page 10
                Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                          (Phase II)




       E. Determined the state of the current teleworking program at the selected office.
          Specifically, we evaluated information/data on:
          1. number of approved teleworkers.
          2. number of positions eligible to telework.
          3. number of deployed laptop computers.
III.   Determined if the IRS has taken necessary steps to take advantage of teleworking as a
       means of mitigating certain risks of a pandemic.
       A. Assessed the telework program in the IRS as a whole:
          1.   number of approved teleworkers.
          2.   number of positions eligible to telework.
          3.   number of deployed laptop computers.
          4.   capacity of the Enterprise Remote Access Program portal.
       B. Assessed the capability of the IRS to expand the telework program/capacity in the
          short term:
          1. costs of additional teleworkers (in terms of infrastructure).
          2. training issues.
          3. management issues.




                                                                                        Page 11
               Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                         (Phase II)




                                                                Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
David Brown, Program Analyst
Jacqueline Nguyen, Senior Auditor




                                                                      Page 12
               Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                                         (Phase II)




                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief, Human Capital Officer OS:HC
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Workforce Progression and Management OS:HC:WRT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief, Human Capital Officer OS:HC




                                                                         Page 13
    Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                              (Phase II)




                                                     Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
Inspection of the IRS’s Pandemic Influenza Preparedness Plan
                          (Phase II)




                                                       Page 15
